               U.S. DEPARTMENT OF THE INTERIOR
                 OFFICE OF INSPECTOR GENERAL




    INSPECTION REPORT




         INSPECTION OF THE
IMPLEMENTATION OF THE MOTOR VEHICLE
         OPERATION POLICY
      BUREAU OF INDIAN AFFAIRS

Report No. NM-IS-BIA-0002-2008        July 2008
                   United States Department of the Interior

                                   Office of Inspector General
                                        Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                        Sacramento, California 95825

                                                                             JUL 31 2008

Memorandum

To:             George T. Skibine
                Acting Assistant Secretary, Indian Affairs

From:           Michael P. Colombo
                Regional Manager

Subject:        Inspection Report – Inspection of the Implementation of the Motor Vehicle
                Operation Policy, Bureau of Indian Affairs
                (Report No. NM-IS-BIA-0002-2008)

     The safe transportation of people and property is an essential component of the
overall mission of the Bureau of Indian Affairs (BIA). However, traffic accidents
involving BIA vehicles demonstrate that more needs to be done to ensure that the vehicle
fleet operations are as safe as possible. In response, BIA established a Motor Vehicle
Operation Policy to review and monitor the driving history of individuals permitted to
drive BIA vehicles. We inspected BIA implementation of this policy to determine
whether:

      ¾   Effective and timely evaluations of new and existing BIA and Bureau of Indian
          Education (BIE) drivers were conducted, and
      ¾   Supervisors were ensuring that Motor Vehicle Operator Authorization Cards
          were issued to and retained only by those employees with acceptable driving
          histories.

    We made recommendations that we feel would improve the implementation of the
licensing policy and ask that you apprise us within 30 days of the actions you take or plan
to take in response to this report.

    We appreciate the cooperation shown by the BIA staff at the safety offices visited
during our inspection. If you have any questions, please call me at (916) 978-5653.
                  INSPECTION RESULTS
                                          REASON FOR COVERAGE
                                          Two couples vacationing from Nebraska were killed in
THE MOTOR VEHICLE                         Albuquerque, New Mexico on January 25, 2002, by a BIA
                                          roads employee driving a government truck the wrong way on
OPERATION POLICY                          Interstate 40 after consuming a 12-pack of beer. In the
COVERS APPROXIMATELY 9,300
                                          ensuing lawsuit, evidence showed numerous employees in the
EMPLOYEES AT THE BUREAUS OF
                                          BIA Navajo Region with drunken driving citations and
INDIAN AFFAIRS AND INDIAN                 convictions, including supervisors. As a result of the lawsuit,
EDUCATION.                                BIA implemented the Motor Vehicle Operation Policy to
                                          establish clear responsibilities for employees, supervisors, and
                                          managers to promote the safe and prudent operation of
                                          vehicles while performing official duties.

                                          We decided to conduct this inspection to ensure BIA
                                          implemented the Motor Vehicle Operation Policy. See
                                          Appendix 1 for a program snapshot. Our objective was to
                                          determine if license and driving record reviews were timely
                                          and effective in ensuring that only employees meeting policy
                                          qualifications received and retained Motor Vehicle Operator
                                          Authorization Cards.1

                                          WHAT WE FOUND
                                          Regional safety offices did not implement the Motor Vehicle
  Ineffective Implementation of
                                          Operation Policy in a manner which allowed for timely and
             Safety Reviews and
                                          effective monitoring of driver histories and training.
              Training Program
                                          Specifically:

                                          • Initial drivers’ license applications and annual renewals
                                            were not received timely and processed effectively.
                                            Although every employee required to operate a motor
                                            vehicle must complete a Form 3607 - Motor Vehicle
                                            Operator’s License and Driving Record, upon hire and
                                            annually thereafter, we found that 296 out of 700 forms
                                            were not received during 2007 at one safety office visited.
                                            For the other two safety offices, we noted similar
                                            conditions for BIE employees where the Form 3607s were
                                            received after the start of the school year, if at all. Failing
      1
          For a description of the scope and methodology see Appendix 2.

                                                            1
                                   to receive these reports from all drivers in a timely manner
                                   undermines the effectiveness of safety officer reviews, and
                                   delays or thwarts the license revocation process.

                                • The identification of employee positions that required
                                  regular versus occasional driving had not been performed
                                  as required. Such identification is essential in determining
                                  what personnel actions are appropriate when an employee
                                  loses their driving authorization. Without this
                                  identification, supervisors and managers were unable to
                                  effectively and consistently propose personnel actions to
                                  deal with driving license revocations.

                                • Mandatory annual Motor Vehicle Operation Policy and tri-
                                  annual driver safety training was not adequately
                                  documented or tracked for each employee. Although such
                                  tracking is essential to ensure that all employees receive
                                  required training, we were unable to locate records to
                                  support that 35 of 79 employees received such training.

                                To remedy these issues, we recommend that the following
            Recommendations     actions be taken:

                                1: Establish specific schedules at the regional level for
                                receiving and processing Form 3607s to ensure that all forms
                                are received timely.

                                2: Ensure that the driving requirements for each position
                                description be identified as required by the Policy Guidance
                                Memorandum.

                                3: Record the training completed for each employee on the
                                respective regional safety office’s spreadsheet database or,
                                alternatively, create a new training database.

                                Employee-reported driving history information was not
     Implementation of Safety   typically validated against information available on the
Reviews and Training Program    National Highway Traffic Safety Administration’s National
              BEST PRACTICE     Driver Registry. This registry, which reports license
                                revocations, suspensions, or serious traffic violations reported
                                by any state related to an individual’s driving license, was
                                used by one Safety Officer to validate employee reported
                                driving histories. We believe that this is a “best practice” that
                                other offices should emulate.




                                               2
                              4: Require regional Safety Officers to obtain employee driver
          Recommendation      records from the National Highway Traffic Safety
                              Administration’s National Driver Registry as part of their
                              annual review process.

                              Untimely and ineffective implementation of the Motor
Delayed License Revocation
                              Vehicle Operation Policy has resulted in inconsistent safety
    and Inconsistent Policy
                              performance and has allowed employees to continue driving
            Administration    when their driving history should have precluded the
                              continuance of driving privileges. Specifically:

                              • Supervisors did not always suspend an employee’s driver
                                authorization timely. This problem is two-fold. First,
                                delayed filing of Form 3607s prevented Safety Officers
                                from timely reviewing and determining when driving
                                Authorization Cards should be revoked. Second, although
                                Safety Officers properly notified supervisors when
                                previously authorized employees failed to pass all current
                                requirements for holding driving Authorization Cards,
                                supervisors were not required to notify the Safety Officer
                                when Authorization Cards were actually suspended and
                                cards revoked.

                              • Regional Safety Officers operate independently with no
                                direct line authority to a single safety office.
                                Consequently, each office has implemented the Motor
                                Vehicle Operation Policy independently with no overall
                                assurance of consistency.

                              To remedy these issues, we recommend that the following
         Recommendations      actions be taken:

                              5: Ensure that regional Safety Officers’ notification letter
                              includes (1) the requirement to notify the Safety Officer when
                              authorization cards were suspended and cards revoked, and
                              (2) a deadline by which these actions are to occur.

                              6: Conduct routine reviews of the regional safety offices to
                              ensure uniformity in program implementation.

                              .




                                             3
                                                                                   Appendix 1




            PROGRAM SNAPSHOT
    The Motor Vehicle Operation Policy, incorporated into Indian Affairs Manual Part 25,
    Chapter 5, requires all employees authorized to drive bureau vehicles have a valid state
    driver license and annually submit a GSA Form 3607, “Motor Vehicle Operator’s License
    and Driving Record” (Form 3607) for review and approval by regional Safety Officers.

      Employee Information      The Form 3607 requires the driver to identify the state issuing
                                their driver license and their driving history of convictions,
                                accidents, suspensions, and any convictions involving alcohol
                                and drugs for the past 4 years. The Form 3607 is submitted to
                                the Safety Officer through the employee’s supervisor.

                                The Safety Officer obtains a copy of the employee’s state
       Safety Officer Review
                                driving record for comparison to the employee’s Form 3607.

                                If the employee is approved to drive, the Safety Officer
    Notification of Approval
                                notifies the employee’s supervisor who issues the employee a
                                Motor Vehicle Operator Authorization Card.

       Notification of Denial   If the employee does not pass the review, the Safety Officer
                                notifies the appropriate supervisor, including the reason the
                                employee did not pass. Following notification, the
                                employee’s supervisor is required to immediately suspend the
                                employee’s driving authorization.

         Grounds for Denial     If the failure to pass was a traffic citation, a court acquittal
                                would allow reauthorizing driving. However, convictions
                                within the past 3 years for (1) reckless driving, (2) driving
                                while intoxicated, (3) driving under the influence, (4) a
                                criminal offense related to driving where alcohol or drugs are
                                involved, or (5) driving without a valid state license, result in
                                revocation of the employee’s authorization to drive a BIA
                                vehicle for 3 years.

                                Employees whose driving authorization is revoked, and where
Referral to Human Resources
                                driving is an integral part of their job, are supposed to be
                                referred to Human Resources for adverse action.




                                                4
                                                                          Appendix 2




        SCOPE & METHODOLOGY
                             We reviewed records and interviewed officials at the
INTERVIEWED OFFICIALS     Central Office-West, Navajo, and Great Plains Regional
AND REVIEWED RECORDS      Offices to determine whether:
AT THREE REGIONAL
OFFICES:                  ¾ Effective and timely evaluations of new and existing
  • Central Office-West     BIA and BIE drivers were conducted, and
  • Navajo
  • Great Plains          ¾ Supervisors were ensuring that Motor Vehicle Operator
                            Authorization Cards were issued to and retained only by
                            those employees with acceptable driving histories.

                              Our records review consisted of a non-statistical sample
                          of BIA and BIE GSA Form 3607 submissions for CY 2007
                          and associated information, including adverse action files
                          for employees who had lost driving authorization during this
                          period. Our inspection work was performed during March
                          and April 2008.




                                         5
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240

By Phone:              24-Hour Toll Free         800-424-5081
                       Washington Metro Area     703-487-5435

By Fax:                703-487-5402

By Internet:           www.doioig.gov



                                                          Revised 06/08
